              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                          September 28, 2011

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up, Office of Financial
               Management

From:
               Regional Manager for Audits, Inspectio s, and Evaluations

Subject:       Verification Review of Six Recommendations from Our March 2008 Audit
               Report No. C-IN-MOA-0011-2006 Titled "Health and Safety Concerns at
               Department ofthe Interior's Facilities"
               Report No. C-VS-DM0-0005-2011

        The Office oflnspector General (OIG) has completed a verification review of six
recommendations presented in the subject audit report. The objective ofthe review was to
determine whether the recommendations to the U.S. Department of the Interior (DOl) were
implemented as reported to the Office of Financial Management (PFM), Office of Policy,
Management and Budget. On June 5, 2009, PFM notified OIG that the documentation submitted
by DOl met the intent of Recommendations 2, 3, 5, and 7 and considered these recommendations
implemented and closed. On March 19, 2010, PFM notified OIG that the documentation
submitted by DOl met the intent of Recommendations 4 and 6 and considered these
recommendations implemented and closed. There were no recommendations remaining open in
this report, so the report was closed.

Background

         Our March 2008 report, "Health and Safety Concerns at Department of the Interior's
Facilities" (Report No. C-IN-MOA-0011-2006), made seven recommendations designed to
assess DOl's processes for addressing health and safety issues related to facilities. Our efforts
were focused on DOl and its bureaus to determine whether they have effectively identified,
prioritized, and mitigated health and safety issues related to its constructed infrastructure that
could adversely affect employees and the public.

       The Deputy Secretary of the Interior responded on February 25, 2008, that the Secretary
and the entire DOl leadership team take the responsibility of providing a healthy and safe
environment for employees and visitors very seriously. DOl concurred with six of the seven
recommendations and partially concurred with Recommendation 3. Based on the Deputy
Secretary's response, OIG considered Recommendation 1 resolved and implemented and
Recommendations 2, 3, 4, 5, 6, and 7 resolved but not fully implemented. As a result, all six



                          Office of Audits, Inspections, and Evaluations I Lakewood, CO
recommendations were referred to the Assistant Secretary for Policy, Management and Budget
for implementation tracking on September 4, 2008.

Scope and Methodology

       The scope of this review was limited to determining whether DOI took action to
implement recommendations 2, 3, 4, 5, 6, and 7 as reported to the Office of Financial
Management, Office of Policy, Management and Budget. To accomplish our objective, we
reviewed the supporting documentation DOI submitted to PFM relating to each of the six
recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected. As
a result, this review was not conducted in accordance with the “Government Auditing Standards”
issued by the Comptroller General of the United States.

Results of Review

Our current review found that DOI implemented Recommendations 3, 4, 5, 6, and 7. We
concluded that Recommendation 2 is not fully implemented.

       Recommendation 2: Establish a full-time position, called Chief of Health and Safety that
       serves as the Designated Agency Safety and Health Official’s (DASHO’s) advocate for
       health and safety. This advocate would work with the existing DASHO Council and
       Asset Management Team to ensure coordination and to ensure that identified issues are
       raised to the appropriate level for decision making.

       Action Taken: In a June 1, 2009 memorandum, the Acting Deputy Assistant Secretary –
       Human Capital, Performance, and Partnerships stated that DOI chose not to create a
       separate Chief of Health and Safety position. Instead, DOI decided to establish regular,
       monthly forums between the DASHO, Deputy DASHO, and the Director of the Office of
       Occupational Safety and Health (OSH). These monthly forums were scheduled to
       identify issues raised to the DASHO for decision-making and awareness. Safety and
       health managers for each of the bureaus/offices are invited to attend all DASHO Council
       meetings along with their respective DASHO. The OSH Director was named as the
       permanent chair of the Safety and Occupation Health (SOH) Council to ensure alignment
       of the DOI’s priorities for safety and health with the efforts of the SOH Council. To help
       ensure that bureau perspectives are represented, a Bureau Safety and Health Manager
       serves as the vice chairperson on a rotating basis. To ensure greater coordination with the
       Asset Management Team, the Deputy DASHO and the OSH Director became members
       of the Asset Management Team. In addition, the Chairperson of the Asset Management
       Team, which includes DASHOs from other DOI agencies, was added to the DASHO
       Council.

       In our current review, we found that only one forum between the DOI DASHO, Deputy
       DASHO, and the OSH Director has convened in the last 2 years. Therefore, we conclude


                                                                                                 2
that actions to strengthen and increase coordination as outlined in the June 1, 2009
memorandum have not been implemented. Although an effective coordinating
mechanism would meet the broad intent of our recommendation, a forum cannot fulfill
this need if it does not convene on a regular basis. We request that PFM reinstate the
Recommendation 2 and ensure full implementation by DOI.

Recommendation 3: Strengthen its Department-wide health and safety program that
covers employees and the general public. This should be based on the elements of a
well-designated health and safety program described in Appendix D and should reduce
the reliance on collateral duty assignments by establishing a sufficient number of
full-time health and safety personnel.

Action Taken: In a June 1, 2009 memorandum, the Acting Deputy Assistant Secretary –
Human Capital, Performance, and Partnerships stated that DOI revisited and updated the
Health and Safety Strategic Plan. The Plan ensures a more comprehensive approach with
measurable goals to cover employees, volunteers, the general public, and others. In
addition, the Plan incorporates the elements of a well-designed health and safety
program. The Strategic Plan/Comprehensive Safety and Occupational Health Program
Elements and Associated Standards have been transmitted to the Assistant Secretaries
and Bureau and Office Directors for implementation.
In August 2008, the Associate Deputy Secretary notified the Assistant Secretaries that a
task group had been established to review current safety and occupational health staffing
levels across DOI, including full-time and collateral-duty safety officers. The task group
also reviewed other safety and health statistics across DOI and the Government and
found wide variations in how each bureau develops and utilizes its health and safety
workforce. Public law 91-596 requires the head of each bureau/office to effectively
implement an occupational health and safety (OHS) program that includes adequate
staffing. The performance standard does not specify the measures for successful program
performance or the staffing required. As a result of the differences in each bureau, the
Associate Deputy Secretary, in an August 2008 memorandum, tasked each bureau
director to develop a workforce strategy for its safety and health workforce. The bureaus
provided their strategies to DOI.

Based on the updates made to DOI’s Health and Safety Strategic Plan, and each bureau’s
strategy for its safety and health workforce, we concluded that Recommendation 3 is
resolved and implemented.

Recommendation 4: Develop and implement a Department-wide action plan with
milestones to eliminate significant health and safety deficiencies.

Action Taken: In February 2008, the Deputy Secretary submitted to OIG a copy of the
“Action Plan to Enhance Occupational Health and Safety at the Department of the
Interior.” Under this plan, each bureau and equivalent office was expected to take the
necessary steps to identify and abate their specific deficiencies from March 2008 through
October 31, 2008. In support of the action plan and to further eliminate significant health
and safety deficiencies, the Secretary signed and distributed an April 17, 2008 memo,

                                                                                          3
“Request for Report Identifying Health and Safety Existing Deficiencies Prioritized
According to Associated Risks.” This memo required each bureau or office to identify
and report deficiencies considered high-risk and provide a timeline for correction. A
work group developed the DOI-wide Risk Assessment System (RAS) for assessing,
categorizing, and prioritizing the correction of health and safety risks on a consistent
basis. Each bureau or office was requested to provide a report for their respective bureau
or office to the Associate Deputy Secretary that identified (1) deficiencies to be
considered in the high risk category, (2) a timeline for correction, (3) funding sources, (4)
steps underway or to be taken in the short-term, and (5) funds that will need to be
reprogrammed from lower priorities in fiscal year (FY) 2008, and long-term actions that
will require a realignment of funds within the budget requests for FYs 2009 and 2010.
As a follow-up to the Secretary’s memo, the Associate Deputy Secretary notified all
Assistant Secretaries, the Special Trustee for American Indians, and heads of bureaus and
offices, that a team was assigned to meet separately with each bureau or office to review
reports and facilitate a more consistent approach to addressing health and safety issues
across DOI. Based on the results of the team’s meetings with the bureaus and offices,
DOI decided that each bureau or equivalent office director will be required to provide an
annual safety and health assurance statement to the OHS Director beginning September
30, 2010. The occupational health and safety assurance statement will identify the
policies and practices in place to mitigate or eliminate facilities and site-related
deficiencies, as well as describe the bureau inspection practices and compliance
monitoring consistent with DOI, Occupational Safety and Health Administration
(OSHA), and bureau occupational health and safety policies and regulations.

In a February 16, 2010 memorandum, the Assistant Secretary for Policy, Management
and Budget announced the updating and publishing of 485 Departmental Manual (DM)
Chapter 6, “Inspections and Abatement.” This updated chapter specifies the minimum
SOH program requirements for conducting occupational health and safety inspections of
DOI establishments and timely abatement of hazards recognized during the inspection
process. Each bureau and office is required to conduct and document inspections of all
establishments under its control for safety and health compliance. More frequent
inspections are to be conducted when there is increased risk of accidents or incidents.
Persons conducting safety and health inspections for each bureau are required to conduct
closing conferences with the appropriate level(s) of management and the employee
representative(s) to disclose the findings of the inspection and to recommend abatement
measures and actions to prevent recurrence. The updated chapter is effective as of
December 22, 2009. Effective June 22, 2011, 485 DM Chapter 5, “Program Evaluations,”
has also been updated. Updated 485 DM Chapter 5 specifies the minimum requirements
for conducting safety and occupational health program evaluations by DOI’s bureaus and
offices. OSH will coordinate, with assistance from the bureaus and offices, program
evaluations of the bureau and office safety and health programs. Finally, an annual report
must be submitted to the Assistant Secretary of Labor for Occupational Safety and Health
Administration describing the overall effectiveness of DOI’s program.




                                                                                            4
Based on DOI’s action plan to identify, assess, abate, inspect, and report on the
effectiveness of its safety and occupational health program, we concluded that
Recommendation 4 is resolved and implemented.

Recommendation 5: Develop a Department-wide funding strategy to ensure that health
and safety issues are timely and effectively addressed.

Action Taken: A guidance addendum prepared by the inter-bureau Budget Work Group
was issued to bureau budget officers to address specific tasks of the action plan related to
the OIG report on health and safety. The guidance addendum requested that bureaus and
offices clearly articulate, within their budget submission, plans to enhance occupational
health and safety program activities and any increases in funding requests to (1) correct
existing safety and health program deficiencies, (2) control existing facilities-related
hazards in accordance with the DOI Risk Assessment System, (3) provide required
training to managers, supervisors, and employees, (4) establish effective automated
inspection and program assessment, and (5) improve the accident reporting, investigation,
and record-keeping system to enhance accident prevention efforts at the bureau and field
level. The Associate Deputy Secretary would examine and provide recommendations for
the fiscal year 2010 budget decision-making process on the bureaus’ and offices’ budget
requests for safety and health program improvements and deficiency mitigation.
OSH’s budget submission to the Budget Office for fiscal year 2010 contained several
requests in response to the OIG report. Additional funding was requested for DOI’s
annual Safety Week campaign, for training and development for the bureaus and offices,
for a full-time Safety Management Information System (SMIS) programmer, for
improvements to SMIS, and to initiate effective safety and health program evaluations
across DOI. OSH will use an evaluation tool modeled after the Comprehensive
Assessment – Safety, Health, and the Environment (CASHE) program at the Bureau of
Land Management. The CASHE program was identified in the OIG report as
representing best practices in inspections and evaluations.

OSH did not have documentation on which recommendations were made by the
Associate Deputy Secretary for safety and health program improvements and deficiency
mitigation for fiscal year 2010.

Based on the budget guidance addendum prepared by the workgroup and OSH’s budget
submission for fiscal year 2010 in response to the OIG report, we concluded that
Recommendation 5 is resolved and implemented.
Recommendation 6: Develop a plan that ensures that all managers, employees, and
health and safety staff receive appropriate training concerning health and safety.

Action Taken: In a March 18, 2010 memorandum to PFM, the OHS Director stated that
an Occupational Health and Safety Training Guide (Guide) has been developed for DOI.
It identifies required and suggested training for all levels of employees, as well as the
training necessary for those serving in a full-time or collateral-duty health and safety
position. The Guide is also available via the Internet. In addition to general training

                                                                                          5
requirements, the Guide includes appendices that identify required training by (1) duties,
(2) topics, (3) sources or providers, and (4) occupation. Finally, the Guide suggests that
supervisors/team leaders conduct an annual discussion with each employee concerning
individual and workplace safety and health. To accomplish DOI’s minimum requirements
for safety and health training, each bureau is required to develop and implement an
annual safety plan that encompasses (1) orientation training, (2) specialized on-the-job
training for high-hazard tasks, (3) training and certification record documentation, and (4)
periodic evaluation of training programs by the Offices of Occupational Health and
Safety and Strategic Employee Development staffs as applicable.

A Safety and Occupational Health Training Conference to build safety and health
awareness was conducted in June 2010. Another conference is planned for June 2012.
OHS staff has participated in, evaluated, and spoke at other training conferences. The
OHS Director also informed OIG that program evaluations have been conducted at four
bureaus or equivalent offices, with two additional evaluations upcoming.

Based on the Guide developed for DOI, OHS’ participation in training conferences, and
program evaluations having been conducted, we concluded that Recommendation 6 is
resolved and implemented.
Recommendation 7: Improve the SMIS system by (1) simplifying the data entry system,
(2) requiring input of both employee and visitor accidents, (3) establishing controls to
ensure that incident reporting data is accurate and complete, and (4) enhancing security.

Action Taken: In a June 1, 2009 memorandum, the Acting Deputy Assistant Secretary –
Human Capital, Performance, and Partnerships stated that a work group was formed to
review the performance of SMIS, pursue remedy of issues with SMIS, and review
alternative solutions to provide the most effective reporting and tracking program. The
SMIS work group contracted for assistance in performing a technical assessment of SMIS
and conducted an analysis of SMIS capabilities against the Safety and Worker’s
Compensation program requirements and needs.

As a result, five options for meeting these program requirements and needs by either
investing in SMIS or implementing an approach were outlined in the work group’s
recommendations report. The report was submitted to DOI in October 2008 and proposed
that DOI redesign and enhance SMIS or invest in a commercial off-the-shelf product.

NBC has been assigned responsibility for developing a business case to determine
whether enhancing SMIS or replacing it with a commercial product is more cost effective
and appropriate for long-term investment. Once funding has been identified and
approved, NBC was contracted to develop a business case and other project management
materials in FY2009.

When funding for purchasing a SMIS replacement product from commercially off-the-
shelf sources was cut in January 2010, OSH decided to keep the existing application and
add enhancements and upgrades to meet all customer needs. Additional programming
was required to update vulnerabilities and address outdated technology and estimates

                                                                                          6
      were based on support development contracts in place. OSH started to enhance SMIS in
      FY2011 within the current budget allocations. Completion of the current enhancements in
      SMIS will assist DOI safety managers through the review process of SMIS and make it
      more user-friendly. In addition, the SMIS helpdesk will increase OSH efforts in
      providing all DOI safety managers with the level of support they need to ensure the
      accurate recording of all DOI accidents and incidents.

      Based on the OSH planned enhancements and progress for improving SMIS to address
      better recording and reporting of health and safety incidents, we concluded that
      Recommendation 7 is resolved and implemented.

Conclusion

      We communicated the results of this review to DOI officials on September 28, 2011. We
consider Recommendations 3, 4, 5, 6, and 7 fully implemented and require no further action.
We consider Recommendation 2 not fully implemented and request that PFM reinstate it and
ensure implementation by DOI.

Responding to the Report

       We request that PFM provide a written response to this report by October 28, 2011
indicating whether it reinstated Recommendation 2. If applicable, the response should provide
PFM’s reasons for not reinstating the recommendation. If you have any questions concerning
this memorandum, please contact me at 303-236-9243.


Attachment


cc:   Nancy Thomas, Audit Liaison, U.S. Department of the Interior
      Alexandra Lampros, Liaison Officer, Office of the Secretary




                                                                                                7
                                                             Appendix 1


          Status of Prior Audit Report Recommendations

Recommendation              Status               Action Required
                                            We are requesting that PFM
                           Resolved;       reinstate the recommendation
      2
                        Not Implemented          and ensure it is fully
                                                implemented by DOI

      3                   Implemented          No action Required


      4                   Implemented          No action Required


      5                   Implemented          No action Required


      6                   Implemented          No action Required


      7                   Implemented          No Action Required




                                                                          1
